<html>
<title> - CHILD SOLDIERS ACCOUNTABILITY ACT OF 2007</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



               CHILD SOLDIERS ACCOUNTABILITY ACT OF 2007

=======================================================================

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON CRIME, TERRORISM,
                         AND HOMELAND SECURITY

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                                   ON

                                S. 2135

                               __________

                             APRIL 8, 2008

                               __________

                           Serial No. 110-140

                               __________

         Printed for the use of the Committee on the Judiciary


      Available via the World Wide Web: http://judiciary.house.gov


                               --------


                   U.S. GOVERNMENT PRINTING OFFICE

41-697                     WASHINGTON : 2008
----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free(866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, 
Washington, DC 20402-0001




                       COMMITTEE ON THE JUDICIARY

                 JOHN CONYERS, Jr., Michigan, Chairman
HOWARD L. BERMAN, California         LAMAR SMITH, Texas
RICK BOUCHER, Virginia               F. JAMES SENSENBRENNER, Jr., 
JERROLD NADLER, New York                 Wisconsin
ROBERT C. ``BOBBY'' SCOTT, Virginia  HOWARD COBLE, North Carolina
MELVIN L. WATT, North Carolina       ELTON GALLEGLY, California
ZOE LOFGREN, California              BOB GOODLATTE, Virginia
SHEILA JACKSON LEE, Texas            STEVE CHABOT, Ohio
MAXINE WATERS, California            DANIEL E. LUNGREN, California
WILLIAM D. DELAHUNT, Massachusetts   CHRIS CANNON, Utah
ROBERT WEXLER, Florida               RIC KELLER, Florida
LINDA T. SANCHEZ, California         DARRELL ISSA, California
STEVE COHEN, Tennessee               MIKE PENCE, Indiana
HANK JOHNSON, Georgia                J. RANDY FORBES, Virginia
BETTY SUTTON, Ohio                   STEVE KING, Iowa
LUIS V. GUTIERREZ, Illinois          TOM FEENEY, Florida
BRAD SHERMAN, California             TRENT FRANKS, Arizona
TAMMY BALDWIN, Wisconsin             LOUIE GOHMERT, Texas
ANTHONY D. WEINER, New York          JIM JORDAN, Ohio
ADAM B. SCHIFF, California
ARTUR DAVIS, Alabama
DEBBIE WASSERMAN SCHULTZ, Florida
KEITH ELLISON, Minnesota

            Perry Apelbaum, Staff Director and Chief Counsel
      Sean McLaughlin, Minority Chief of Staff and General Counsel
                                 ------                                

        Subcommittee on Crime, Terrorism, and Homeland Security

             ROBERT C. ``BOBBY'' SCOTT, Virginia, Chairman

MAXINE WATERS, California            LOUIE GOHMERT, Texas
WILLIAM D. DELAHUNT, Massachusetts   J. RANDY FORBES, Virginia
JERROLD NADLER, New York             F. JAMES SENSENBRENNER, Jr., 
HANK JOHNSON, Georgia                Wisconsin
ANTHONY D. WEINER, New York          HOWARD COBLE, North Carolina
SHEILA JACKSON LEE, Texas            STEVE CHABOT, Ohio
ARTUR DAVIS, Alabama                 DANIEL E. LUNGREN, California
TAMMY BALDWIN, Wisconsin
BETTY SUTTON, Ohio

                      Bobby Vassar, Chief Counsel

                    Caroline Lynch, Minority Counsel







                            C O N T E N T S

                              ----------                              

                             APRIL 8, 2008

                                                                   Page

                                THE BILL

S. 2135, the ``Child Soldiers Accountability Act of 2007.........     0

                           OPENING STATEMENT

The Honorable Robert C. ``Bobby'' Scott, a Representative in 
  Congress from the State of Virginia, and Chairman, Subcommittee 
  on Crime, Terrorism, and Homeland Security.....................     1
The Honorable Louie Gohmert, a Representative in Congress from 
  the State of Texas, and Ranking Member, Subcommittee on Crime, 
  Terrorism, and Homeland Security...............................     8
The Honorable John Conyers, Jr., a Representative in Congress 
  from the State of Michigan, and Chairman, Committee on the 
  Judiciary......................................................     9

                               WITNESSES

Ms. Grace Akallo, former child soldier, advocate for child 
  soldiers, Worcester, MA
  Oral Testimony.................................................    11
  Prepared Statement.............................................    13
Mr. Tom Malinowski, Washington Advocacy Director, Human Rights 
  Watch, Washington, DC
  Oral Testimony.................................................    13
  Prepared Statement.............................................    16
Mr. David Crane, Syracuse University College of Law, Syracuse, NY
  Oral Testimony.................................................    21
  Prepared Statement.............................................    23

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Prepared Statement of the Honorable John Conyers, Jr., a 
  Representative in Congress from the State of Michigan, and 
  Chairman, Committee on the Judiciary...........................    10

                                APPENDIX

Material Submitted for the Hearing Record........................    53

 
                   CHILD SOLDIERS ACCOUNTABILITY ACT 
                                OF 2007

                              ----------                              


                         TUESDAY, APRIL 8, 2008

              House of Representatives,    
              Subcommittee on Crime, Terrorism,    
                              and Homeland Security
                                Committee on the Judiciary,
                                                    Washington, DC.

    The Subcommittee met, pursuant to notice, at 4:10 p.m., in 
room 2141, Rayburn House Office Building, the Honorable Robert 
C. (Bobby) Scott (Chairan of the Subcommittee) presiding.
    Present: Representatives Scott, Conyers, and Gohmert.
    Staff Present: Ameer Gopalani, Majority Counsel; Veronica 
Eligan, Majority Professional Staff Member; Kelsey Whitlock, 
Minority Staff Assistant; and Kimani Little, Minority Counsel.
    Mr. Scott. The Subcommittee will come to order.
    And I welcome you to the hearing before the Subcommittee on 
Crime, Terrorism, and Homeland Security on S. 2135, the ``Child 
Soldiers Accountability Act of 2007.''
    [The bill, S. 2135, follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Scott. In at least 18 countries around the world, 
children are direct participants in war. Many of these child 
soldiers, some as young as 8 years old, are abducted or 
recruited by force and often are compelled to follow orders 
under harsh duress. Contrary to popular belief, in many 
conflicts, girls make up more than 30 percent of child soldiers 
and are often raped. Once recruited, these children, boys and 
girls, participate in all forms of combat, even wielding AK-47s 
and M-16s, as portrayed in the media.
    The prevalence and nature of the child soldier problem is 
not going away any time soon. It continues to plague the 
international community. In Uganda, a rebel group has abducted 
at least 20,000 children and has forced them to work as 
laborers, soldiers and sex slaves. We hear about ongoing 
persecution and atrocities in Burma, but what has escaped media 
attention is the use of child soldiers there. The Government 
has recruited up to 70,000 children--more than any other 
country in the world.
    There is a clear legal prohibition on recruiting and using 
child soldiers. Over 110 countries, including the United 
States, have ratified the Optional Protocol to the Convention 
on Rights of the Child, which prohibits recruitment and use of 
child soldiers under the age of 18. But individual recruiters 
continue to operate with impunity, violating their countries' 
policies and treaty obligations.
    So we must ask ourselves why this so. Is it a failure of 
the law or of will or both? This hearing will probe ways in 
which we may, as a country, contribute to prevention and 
punishment of recruiting and using child soldiers.
    Recruiting and using child soldiers does not now violate 
the United States Criminal Code. To this end, Senator Durbin 
and Senator Coburn introduced the Child Soldiers Accountability 
Act, legislation designed to amend title 18 of the U.S. Code to 
create a criminal provision aimed at those who recruit or 
conscript children under the age of 15 into armed conflict. The 
bill will establish criminal penalties up to 20 years in prison 
and up to life imprisonment if death results from the crime.
    Finally, the bill would extend U.S. jurisdiction to 
perpetrators of the crime who are present in the United States, 
regardless of their nationality and regardless of where the 
crime takes place, so that those who commit these crimes cannot 
use this country as a safe haven from prosecution. This type of 
jurisdiction exists for similar crimes, such as laws against 
torture and genocide, which allow for extraterritorial 
jurisdiction for crimes committed outside of the United States.
    We overwhelmingly passed the Genocide Accountability Act 
last year to end the immunity gap in the genocide law. We 
should explore doing the same for those who maliciously recruit 
and use innocent children in warfare.
    With that said, it is my pleasure to recognize the Ranking 
Member of the Subcommittee, the gentleman from Texas, Mr. 
Gohmert.
    Mr. Gohmert. Thank you, Mr. Chairman. I do want to thank 
you for scheduling this hearing. This is an atrocious practice 
that has been carried out in countries around the world. And we 
are honored to welcome a distinguished panel of witnesses to 
share their views on this timely issue.
    Children are currently used as soldiers apparently in over 
20 countries. An estimated 200,000 to 300,000 children are used 
as soldiers for rebel groups, militias and government armed 
forces.
    The individuals who recruit children do so because children 
are physically vulnerable and easily intimidated. Many children 
are recruited by force and often compelled to follow orders 
under threat of death.
    When faced with issues such as combatting the recruitment 
of child soldiers, many in Congress are interested in enacting 
legislation that attempts to address the problem. I believe the 
Committee has good intentions in addressing this issue.
    Our colleagues in the Senate have already passed S. 2135, 
the ``Child Soldiers Accountability Act of 2007.'' The Child 
Soldiers Accountability Act makes it a Federal crime to recruit 
or use child soldiers in an armed conflict. The bill also gives 
the Government the authority to deport or deny admission to any 
individual who recruited or used children or a child as a 
soldier under the age of 15.
    Advocates for this bill state that it sends a message to 
the world that the United States does not condone the use of 
child soldiers. They also state this bill ensures that our 
soldiers will not serve as a sanctuary for human rights 
violators.
    However, I wonder if adding another statute to the Federal 
Criminal Code is the best way for this Committee and ultimately 
this Congress to combat the use of child soldiers. To date, 
there have only been a total of 14 prosecutions involving a 
charge of recruiting child soldiers worldwide. All 14 cases 
have been held in international war crimes tribunals. None of 
the 14 defendants were American. None of the conduct that led 
to the 14 prosecutions occurred on American soil.
    These facts lead me to wonder if a child soldier 
recruitment case would ever be brought in a U.S. Federal Court. 
It may be prudent for Congress to consider other ways to combat 
the use of child soldiers, but I remain interested in hearing 
from our witnesses on this issue.
    Congress should take action to pressure violating countries 
to end this practice. Another possibility is to deny foreign 
assistance to nations or groups that use child soldiers. I 
believe there are a variety of options to be considered that 
may be better than adding another statute to the Federal Code. 
But again, I understand the position that the United States 
needs to set an example, and so I remain interested to hear 
your testimony here today.
    Thank you, Mr. Chairman. I yield back.
    Mr. Scott. Thank you.
    The Chairman of the full Committee, the gentleman from 
Michigan, Mr. Conyers.
    Mr. Conyers. Thank you, Chairman Scott, Judge Gohmert.
    This is important. This is one of the few bills that are 
self-descriptive: to prohibit the recruitment or use of child 
soldiers; to designate persons who recruit or use child 
soldiers as inadmissible aliens; to allow the deportation of 
persons who recruit or use child soldiers.
    So what that means is that anybody that has done that and 
comes to this country is still subject to prosecution. And it 
is a very, I think, excellent step forward in this grisly and 
inhumane practice in which some quarter of a million or more 
children are exploited each day in state-run armies, in 
paramilitaries and in guerilla groups around the world. They 
are soldiers, they are human mine detectors, they are sex 
slaves, they are porters. And they suffer, being in their 
vulnerable position, a higher mortality rate. They are more 
prone to disease. Their injuries in combat situations are 
always higher than adults.
    And so we feel that this a very important step forward to 
help in every way. As Judge Gohmert suggests, there may be 
other additional steps that we may take. And it is to that end 
that I commend the Chairman and the Ranking Member for these 
hearings.
    And I ask unanimous consent that my statement be included 
in the record.
    Mr. Scott. Thank you. Without objection, so ordered.
    [The prepared statement of Mr. Conyers follows:]
Prepared Statement of the Honorable John Conyers, Jr., a Representative 
in Congress from the State of Michigan, and Chairman, Committee on the 
                               Judiciary
    The use of child soldiers has been reported in at least 21 
conflicts around the world since 2001, including conflicts in Colombia, 
Uganda, the Democratic Republic of Congo, and Sierra Leone. It's 
estimated that up to 250,000 children are currently serving as soldiers 
or in some combat support capacity.
    As you might imagine, the lives of these youngsters are constantly 
in danger as a result of their forced labor as combatants, porters, 
human mine detectors, and sex slaves. Their precious childhoods are 
permanently scarred by such experiences--experiences we would not wish 
to endure, at any age.
    The ``Child Soldiers Accountability Act'' seeks to deter this 
horrible practice by taking several important steps to end the use of 
child soldiers.
    First, the bill makes it a federal crime to recruit or to actually 
use child soldiers, under the age of 15, in hostilities. The concept of 
individual criminal responsibility in this area is supported worldwide. 
The United States is a party to several treaties, including the 
Convention on the Rights of the Child, that prohibit this practice. The 
bill imposes penalties of 20 years to life in prison for this heinous 
crime.
    Second, the bill facilitates the swift prosecution of perpetrators, 
regardless of where the crime was committed. Last fall we passed the 
William Wilberforce modern anti-slavery bill, which provided the State 
Department international aid and monitoring mechanisms to combat the 
use of child soldiers.
    But fighting this heinous crime overseas is not enough. This bill 
brings the power of the Justice Department to bear, in recognition that 
this is an offense against international law that every country has a 
responsibility to prosecute when it is discovered, just like torture 
and slavery.
    In fact, the House recently passed a bill, subsequently enacted 
into law, that would authorize genocide prosecutions against those 
found present in the United States who committed genocide abroad. We 
did this to avoid a situation where perpetrators of genocide could 
reside in the United States as a safe haven from prosecution. 
Similarly, we should not allow those who recruit or use child soldiers 
to find a safe haven in our Nation.
    Third, this Act will send a forceful message that child soldier 
recruiters will be prosecuted. And, for the future, it will be a 
forceful deterrent against the abuse of innocent children around the 
world.
    The United States has been a key participant in global law 
enforcement efforts against genocide, war crimes, and other crimes 
against humanity. By supporting the ``Child Soldiers Accountability 
Act,'' we extend these critical efforts into punishing and deterring 
the use of child combatants.

    Mr. Scott. We have a distinguished panel of witnesses here 
to help us consider the important issues before us.
    Our first witness will be Grace Akallo, who is a graduate 
of Gordon College with a degree in communications and has 
worked for World Vision on behalf of children worldwide. She 
was abducted by Ugandan rebels at the age of 15 and dragged 
into Sudan. She witnessed numerous atrocities committed by the 
rebels. And although she witnessed the murder of those who 
attempted to escape, she managed a heroic escape back home. She 
is now internationally renowned as a spokesman and one who has 
testified before the House Committee on Foreign Affairs. She 
has also appeared on the ``Oprah'' television show. She is the 
author of ``Girl Soldier: A Story of Hope for Northern Ugandan 
Children.''
    Our next witness after that will be Tom Malinowski, who has 
served as the Washington advocacy director for Human Rights 
Watch since 2001. He is responsible for the organization's 
overall advocacy effort. Prior to joining Human Rights Watch, 
he served as a special assistant to President Bill Clinton and 
as a senior director of foreign-policy speechwriting at the 
National Security Council. He holds degrees in political 
science from the University of California at Berkeley and 
Oxford University.
    And our final witness will be Professor David M. Crane, 
appointed as a professor of practice at Syracuse University 
College of Law in the summer of 2006. From 2002 to 2005, he was 
the chief prosecutor of the Special Court for Sierra Leone in 
an international war crimes tribunal and was appointed to that 
position by Secretary General of the United Nations Kofi Annan. 
He has served in public service for over 30 years in various 
capacities, such as senior inspector general at the Department 
of Defense and the assistant general counsel of Defense 
Intelligence Agency.
    So we begin our testimony with Ms. Akallo. Your entire 
written statement will be made part of the record. We would ask 
you to summarize your statement in 5 minutes or less. And there 
is a lighting device at the table which will go from green to 
yellow when there is 1 minute left and to red when the 5 
minutes are up.
    Ms. Akallo?

 TESTIMONY OF GRACE AKALLO, FORMER CHILD SOLDIER, ADVOCATE FOR 
                 CHILD SOLDIERS, WORCESTER, MA

    Ms. Akallo. Thank you, Mr. Chairman, Members of the 
Subcommittee, for allowing me to testify before you today on 
behalf of many of the children who are being brutally forced to 
become soldiers and killers. Your concern on the issue of child 
soldiers is very vital for the children who have suffered and 
continue to suffer around the world.
    On the night of October 9, 1996, the Lord's Resistance 
Army, rebels fighting the Government of Uganda, dashed into my 
school dormitory. Some of those rebels were younger than me; I 
was 15 years old. Within an hour, the rebels tied up girls in 
my dorm and forced 139 of us into the cold night. It was 
pricking cold. It felt unreal. No stars shown. Dawn was far 
off. No moon lit our way, only dark clouds announcing our fate.
    Our silent fear had come true. Nothing could prepare us for 
it. For 20 years, war has been no stranger among us. Our 
capture could have happened on any other day. But this 
particular day was a day of celebration and singing in my 
country--such irony--for October 9th was our celebration of 
Uganda's independence. That night, led like slaves, we were 
taken to a life of torment. We left our independence behind.
    We moved the whole night. Sister Rachelle, the deputy 
headmistress of Saint Mary's College in Aboke, who had hidden 
behind the banana plantation during our capture, tracked our 
footprints and caught up with us. Sister Rachelle, eyes swollen 
with grief, walked by our side for the whole day, pleading with 
the rebel commander for our release. 109 were released, and 30 
of us were kept. And some of us were never to come back to see 
our homeland and feel the warmth of our parents' love again, 
never to see the rise and setting of the sun.
    We were taught to dismantle, clean and assemble the gun. We 
were taught to kill, abduct and loot people's property. Many of 
these abducted children who could not walk were killed, and 
those who tried to escape were brutally killed in front of me 
and the others. Five of my friends were killed, and two are 
still missing. I have seen heads smashed. I have seen people 
beaten until their sockets swallow their eyes. I have seen 
children turn into monsters against their will. I have survived 
being buried alive.
    Mr. Chairman, the recruitment and forceable abduction of 
children into the army continues today because their voices are 
never heard. We have failed to see their tears. The day I was 
abducted, the world stood still, and that is what every child 
forced to become a child soldier faces. It is beyond fear, Mr. 
Chairman.
    I am not here to evoke emotions without action but to plead 
with you, Mr. Chairman and Members of the Subcommittee, to make 
the Child Soldiers Accountability Act become law. The 
perpetrators of child-soldiering crime must be held 
accountable. They should be brought to justice everywhere in 
the world. It pains my heart when the perpetrators are given 
safe haven here in the United States and other parts of the 
world or given amnesty. In some countries where some of the 
perpetrators have been given amnesty, they live like kings, yet 
their victims suffer injustices.
    On November 20, 1989, the United Nations approved a 
Convention on the Rights of the Child. And article 35 provides 
the right to protection from being abducted, sold or 
trafficked. Article 36 provides the right to protection from 
all other forms of exploitation. And article 38 provides the 
right, if below 15 years of age, not to be recruited into the 
armed forces nor engaged in direct hostility.
    Mr. Chairman, this has not been obeyed by numerous 
countries that still abduct, recruit and exploit children 
because they face no consequence for their action. Making the 
Child Soldiers Accountability Act become law would send a 
strong message to those involved now and those planning in the 
future to recruit and abduct children below 15 years of age 
into armed forces.
    Mr. Chairman and Members of the Subcommittee, I thank you 
for the opportunity to testify today and argue to continue to 
be leaders in the protection of children around the world. The 
enactment of the Child Soldiers Accountability Act will send a 
signal to those country's armies and state and nonstate actors 
who intend to arm and threaten the life of children--children 
who need education opportunities and plowshares, not swords, 
thrust in their arms.
    I will be happy to answer questions about my experience as 
a child abducted into soldiering and my quest now to speak on 
behalf of those gone, forgotten and now bearing arms against 
their will.
    [The prepared statement of Ms. Akallo follows:]
                   Prepared Statement of Grace Akallo
    Thank you Mr. Chairman and members of the subcommittee for allowing 
me testify before you today on behave of many of the children who are 
being brutally forced to become soldiers and killers. Your concern on 
the child soldiers is very vital for the children who have suffered and 
still suffering. On night of October 9, 1996 the lord's resistance 
army, rebels to the government of Uganda, dashed into my dormitory. And 
Some rebels were younger than me, then 15 years old. Within an hour the 
rebels tied up girls in my dormitory, and forced 139 girls into the 
cold night. It was pricking cold. It felt unreal. No stars shone. Dawn 
was far off. No moon lit our way. Only dark clouds announcing our fate. 
Our silent fear had come true; nothing could prepare me for it. For 20 
years, war has been no stranger amongst us. Our capture could have 
happened on any other day. But this particular day of celebration and 
singing in my country? Such irony. For October 9, 1996, was our 
independence. That night, led like slaves, we were taken to the life of 
torment. We left our independence behind. We moved the whole night. 
Sister Rachelle, the deputy headmistress who had hidden behind the 
banana plantation, tracked our footprints and caught up with us. Sister 
Rachelle, swollen with grief, walked by our side for the whole day 
pleading with the commander for our release. 109 were released and the 
30 of us were kept behind and some of us were never to come back to our 
homeland, and feel the warmth our parents' love again, never to see the 
rise and setting of the sun again. We were taught to dismantle clean 
and assembled the gun. We taught to kill abduct and loot people 
property. Many of the kids who could not walk were killed and those who 
tried to escape were brutally killed in front of the others. Five of my 
friends were killed and two are still missing.
    I have seen heads smashed. I have seen people beaten until their 
sockets swallow their eyes. I have seen children turned into monsters 
against their will. I have survived being buried alive.
    Dear Mr. Chairman, the recruitment and forcible abduction of 
children into the army continues, because their voices are never heard, 
we have failed to see their tears. The day I was abducted, the world 
stood still and that is what every child forced to become child a 
soldiers encounters, it is beyond fear Mr. Chairman.
    I am not here to evoke emotions without action, but to plead with 
you Mr. Chairman and members of the subcommittee to make child soldier 
accountability act became law. The perpetrators of child soldiering 
crime must be hold accountable. They should be brought to justice 
anywhere in the world. It pains my heart when the perpetrators are 
given safe havens here in the United States and others parts of the 
world or given amnesty as in the case in country where some of the 
perpetrators have been given Amnesty, they live like kings yet the 
victims continue to suffer injustices.
    On November 20th, 1989 the United Nations approved the Convention 
on the right of the child and in article 35 states; the right to 
protection from being abducted, sold, or trafficked. 36 states; the 
right to protection from all other forms of exploitation and 38 states; 
the right, if below 15 years of age not to be recruited into the armed 
forces nor engage in direct hostilities. Mr. Chairman this has not been 
obeyed by some countries that still abduct, recruit and exploit 
children, because they do not face any consequences of their action. By 
making the Child soldier accountability act 2007 become law, it would 
send a strong massage to those involved now and those planning in the 
future to recruitment and abduct children below 15 years of age into 
armed forces.
    Mr. Chairman and the members of the Subcommittee, I believe that as 
you decide on this piece of legislation whether to adopt it or not, you 
would be thinking of own your family, your children, if they were the 
once being forced to become soldiers what would do, what would want 
people do for you and your family.
    Thank you Mr. Chairman.

    Mr. Scott. Thank you very much. Thank you.
    Mr. Malinowski?

  TESTIMONY OF TOM MALINOWSKI, WASHINGTON ADVOCACY DIRECTOR, 
               HUMAN RIGHTS WATCH, WASHINGTON, DC

    Mr. Malinowski. Thank you, Mr. Chairman, Members, for 
having us here and for looking at this very, very important 
issue.
    Children are recruited to serve and to fight in armed 
conflict in at least 18 countries around the world. Human 
Rights Watch, my organization, has investigated the use of kids 
in armed conflict in Colombia, where they are used by both 
paramilitary groups and left-wing rebels; in northern Uganda, 
where Grace is from; in Sri Lanka, where both sides in the 
civil war use children; in Burma, Somalia, Rwanda, Liberia. The 
list unfortunately goes on and on.
    No one knows the exact number of child soldiers in the 
world, but the U.N. estimates there may be as many as a 
quarter-million serving in conditions of armed conflict 
worldwide.
    Children are recruited because they are vulnerable, because 
they are easily intimidated, because they make obedient 
soldiers. Many are recruited by force, like Grace was. Others 
join out of desperation, as their communities break down, as 
they are separated from their families, driven from their 
homes, left with no opportunities, no one to care for them or 
to protect them. But regardless of how they are recruited, 
child soldiers are denied a childhood, and they are often 
subjected to horrific violence.
    How do we fight this problem? There is no magical solution. 
But what we can do is what we have done for generations in 
trying to curb the worst, most inhumane excesses of war: We can 
try to set a standard, and then we can try to enforce that 
standard, until a practice that still appears normal in many 
parts of the world begins to be seen as wrong, subject to 
punishment and ultimately, we hope, unthinkable.
    Now, we have already gone a long way toward setting a 
global standard that you can't recruit kids for war. The 
recruitment and participation in hostilities of children under 
15 was first prohibited in 1977 by the additional protocols to 
the Geneva Conventions. It is recognized as a war crime now by 
the International Criminal Court. We now have a treaty, which 
the United States has ratified, forbidding recruitment of 
children under 18 or their use in hostilities. And that has 
been ratified by 120 countries, including by us.
    The challenge we face is enforcing these norms, for while 
many governments and even nonstate armed groups have policies 
on paper stating that their minimum age of recruitment is 18, 
recruiters who actually violate those policies are rarely held 
accountable.
    Now, a big recent advance has come with the Special Court 
for Sierra Leone, which David Crane will talk about and which 
receives, as you know, strong financial support from the United 
States. The Special Court has begun to prosecute and to convict 
people who recruited child soldiers in that country's brutal 
civil war, including Charles Taylor.
    The International Criminal Court recently took a case 
involving a defendant who is accused of conscripting children. 
And as these trials proceed, as convictions are handed down, we 
hope that child recruiters get the message that they are going 
to be held accountable for this kind of behavior. And that is 
the way to achieve deterrence.
    Now, you mentioned, Mr. Gohmert, that thus far it has been 
mostly the international courts that have taken these kinds of 
cases. And that is true, but that is precisely because very few 
countries have criminalized the practice of recruiting and 
using child soldiers in their national criminal codes. National 
courts in most countries simply can't do this yet. But we need 
them to, because the international courts have very limited 
jurisdiction, only for a small number of countries, like Sierra 
Leone or cases that the ICC may take, which are only the most 
extraordinary ones. Here in the United States, our code doesn't 
address the issue. So if one of Grace's tormenters were to come 
to the United States, or any number of people like that, our 
courts would not be able to act. They would be able to take 
safe haven here.
    Now, that is why we support the Child Soldiers 
Accountability Act. We think it would send a strong message to 
child recruiters around the world that they can't find safe 
haven in the United States. It would enable us to prosecute 
people who might try to recruit kids from the United States to 
fight in foreign conflicts. And that is not unthinkable. In the 
late 1990's, for example, the Kurdistan Workers Party recruited 
school-children in Europe to serve in PKK forces in 
southeastern Turkey. And it would set an example for other 
countries around the world that would also like to adopt 
similar laws. And I believe the Justice Department would use 
this law. We can perhaps discuss that later.
    We also have precedent for this kind of legislation in 
existing laws. The Chairman mentioned, I believe, the U.S. Code 
already makes it a crime for torture to be committed abroad, 
irrespective of the nationality of the victim or alleged 
offender. The Senate has passed the Genocide Accountability 
Act, which allows us to prosecute non-U.S. nationals for acts 
of genocide. And these kinds of laws have proven useful in 
real-life cases in the past.
    So we are encouraged to see the bill has passed the Senate. 
We are encouraged by the strong bipartisan support; there is no 
divide in this Congress or in this country about preventing the 
exploitation of children. And we do hope that the Subcommittee 
will act favorably and take this up so it can quickly become 
law.
    Thank you very much.
    [The prepared statement of Mr. Malinowski follows:]
                  Prepared Statement of Tom Malinowski

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Scott. Professor Crane?

 TESTIMONY OF DAVID CRANE, SYRACUSE UNIVERSITY COLLEGE OF LAW, 
                          SYRACUSE, NY

    Mr. Crane. Thank you, Mr. Chairman, and thank you for this 
opportunity to address this Committee on what I feel to be an 
important international issue that impacts our country and its 
security, and that is the scourge of children used as soldiers 
in armed conflict.
    For the first time in history, those who bear the greatest 
responsibility for war crimes, crimes against humanity and 
other serious violations of international humanitarian law that 
took place during recent wars have been charged with the use of 
child soldiers under the age of 15 into an armed force.
    The use of children in armed conflict is an age-old issue, 
of course. Modern international norms, however, have identified 
and outlawed their use. International tribunals, such as the 
Special Court for Sierra Leone, of which I was the founding 
chief prosecutor, are now on the cutting edge of international 
criminal law and holding accountable those warlords, commanders 
and politicians who turn to children, some as young as the age 
of 6 years old, to carry out orders that, in some cases, result 
in war crimes and crimes against humanity. Only in the past 10 
years has the international community begun to grapple with 
this international problem.
    A favorite tactic to induce children to join their force 
was for the rebels to move in and surround the village in 
Sierra Leone. The children were made to kill their parents and 
then were driven into the bush and forced to serve as soldiers, 
in many instances for years. The numbers are not fully known, 
but it was in the thousands. These children, ranging from 6 to 
18 years of age, roamed the battlefields, hopped up on cocaine 
or marijuana, destroying their own country. Over time, the 
various warring factions became their home and their families. 
Many forgot their real names or even where they came from.
    All sides to the conflict in Sierra Leone used children. 
When that horrific conflict staggered to its bloody conclusion 
in 2002, just shortly before my arrival in country, an entire 
nation lay in ruins. These child fighters found themselves with 
no families, little to no education, and a society unable to 
assist them in starting to rebuild their lives. Many were 
physically and psychologically damaged. The lost generation of 
Sierra Leone now sits by pockmarked roads with no hope waiting 
for the next ``Pa'' to lead them back into the only life they 
know: fighting, raping, pillaging and murdering their fellow 
citizens.
    The Child Soldiers Accountability Act of 2007, passed by 
the United States Senate in December of last year, is an 
important signal to the world that this country will not 
tolerate those who recruit mere children into armed forces of 
whatever kind. Moreover, it gives our Government the legal 
tools to deal with those who are in this country or seek to 
enter this country to deal with them by prosecution, exclusion 
and/or deportation.
    I will close with a story of thousands that I personally 
was involved with in my 3 years in West Africa relating to just 
one child soldier. And I quote this from my opening statement 
to the tribunal against the leadership of the Revolutionary 
United Front.
    It was a clear, hot day. The meeting hall in the school for 
the deaf located up country near Makeni rippled with the heat 
of over 500 persons. I had been speaking to the students, 
faculty and others in one of my many town hall meetings I 
conducted throughout Sierra Leone. The purpose of the meetings 
were to provide a vehicle for the people of this small and 
fragile nation to talk to their prosecutor about the war, the 
crimes, their pain and other issues related to our work.
    As I finished answering a question from a student near the 
front, a shy, small arm was raised in the middle of the hall. I 
walked back to the student. He meekly stood up, head bowed, and 
he mumbled loud enough for those around him to hear, ``I killed 
people. I am sorry. I didn't mean it.'' I went over to him, 
tears in my eyes, and I hugged him and said, ``Of course you 
didn't mean it. I forgive you.''
    Thank you, Mr. Chairman, for this opportunity to address 
you today about holding accountable those who destroy 
children's lives by recruiting them into armed forces. I 
welcome your questions, sir.
    [The prepared statement of Mr. Crane follows:]
                  Prepared Statement of David M. Crane

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Scott. Thank you.
    Ms. Akallo, how do recruiters induce the children?
    Ms. Akallo. When they are first abducted, they use--in 
Uganda, they use kind of a ritual act by putting a batter on 
the child. That is to initiate the child into the army. And in 
the second step, the child is beaten until he doesn't know 
himself or herself. And then he is given a gun and is forced to 
kill or beat someone to death. And the child goes on, 
continues, until the child is hardened enough to do it alone.
    Mr. Scott. Mr. Malinowski, you mentioned Charles Taylor. 
What did he do relevant to this issue, and how was he 
prosecuted? And what would this bill do?
    Mr. Malinowski. That is actually better directed to the 
former chief prosecutor who prosecuted him.
    Mr. Scott. Mr. Crane?
    Mr. Crane. Well, thank you.
    Charles Taylor was the linchpin in a 10-year-long 
geopolitical joint criminal enterprise between himself, Blaise 
Compaore of Burkina Faso and Muammar Gaddafi of Libya. Charles 
Taylor told Foday Sanko, who was about to invade Sierra Leone 
from Liberia, to take over the diamond fields of eastern Sierra 
Leone, ``Recruit everyone, to include women and children,'' and 
that he did for 10 years.
    And for that I signed an indictment in March of 2003 
indicting Charles Taylor, the sitting President of Liberia, on 
11 counts of war crimes and crimes against humanity, one of 
which was the unlawful recruitment of children into an armed 
force under the age of 15, the first time in history that this 
had ever been done.
    Mr. Scott. What is the status of the prosecution?
    Mr. Crane. Well, the Special Court for Sierra Leone is 
about 90 percent done. Most of the individuals who were charged 
have been found guilty and have been convicted, to include, all 
of them, the unlawful recruitment of children under the age of 
15 into an armed force.
    Charles Taylor--of course the international community had 
to come to a political decision as to when to hand over a head 
of state to an international tribunal. They did so in March of 
2006. He now sits before Trial Chamber No. 2 of the Special 
Court for Sierra Leone in The Hague on that 11-count indictment 
that I signed on the 3rd of March of 2003, sir.
    Mr. Scott. Now, this is the International Criminal Court?
    Mr. Crane. No. It is a hybrid international war crimes 
tribunal. It is the first one tried in history.
    The ad hoc tribunal concept was too slow, too expensive. 
The Security Council, with the leadership of this country, I 
might add, came up with a new hybrid international tribunal to 
be a little bit more efficient, a little bit more effective, 
and try those who bear the greatest responsibility for war 
crimes and crimes against humanity, as opposed to just 
everyone.
    So I narrowed it down to about 13 indictees, and they are 
completing their work. They should be done about 8 years after 
we started.
    Mr. Scott. Are United States citizens subject to this 
court?
    Mr. Crane. They are not, Mr. Chairman.
    Mr. Scott. Is there any situation that would justify 
recruiting children under the age of 15?
    Mr. Crane. Not that I can know of at all. I have found no 
military reason, moral reason or practical reason.
    Mr. Scott. Why do we use 15 rather than 18?
    Mr. Crane. That is a good question. That is a debate within 
the international community, and Tom might be able to address 
that.
    My personal opinion is certainly anybody under the age of 
15 should not be in an armed force. Various countries in the 
world use 17 year olds in their armed forces with consent from 
parents, but the international standard is under 18. However, 
the debate continues related to whether a child can commit a 
war crime; certainly under the age of 15, I would certainly 
submit to you.
    And this act, correctly at this point, cites those who 
unlawfully recruit under the age of 15.
    Mr. Malinowski. I agree. There is an absolute international 
consensus for under 15. There is an emerging norm that under 18 
is prohibited, which the United States has joined. We still 
recruit--and that is consistent with the treaty--17 year olds, 
but it is U.S. policy not to involve them in hostilities, in 
conflict.
    Mr. Scott. Thank you.
    The gentleman from Texas?
    Mr. Gohmert. Thank you, Mr. Chairman.
    And I thank the witnesses for your testimony.
    Ms. Akallo, obviously nobody here would wish what you went 
through on anyone. And you have our greatest sympathy.
    You did say, ``It pains my heart when the perpetrators are 
given safe havens here in the United States, in other parts of 
the world, are given amnesty.'' And I am curious, do you know 
if any of your perpetrators were given safe haven or amnesty 
here in the United States?
    Ms. Akallo. I still don't know the people that have been 
given amnesty here. But the leader of the Lord's Resistance 
Army is actually asking for the Government of Uganda to allow 
him to be given a place somewhere. And it can be the United 
States, it can be anywhere in the world that he can go, and he 
will be free without being charged.
    Mr. Gohmert. But do you know of anyone who you are aware of 
forced children to become soldiers, getting safe haven or 
amnesty in the United States?
    Ms. Akallo. Not in the United States. The second in command 
in Uganda, the Lord's Resistance Army, was given amnesty in 
Uganda and lives in Uganda.
    Mr. Gohmert. Okay. Well, I was just curious, because when 
you said it pains my heart when perpetrators are given safe 
havens here in the United States, I guess you were talking 
about in the future, if it ever happened, because you are not 
aware of it happening so far, correct?
    Ms. Akallo. I am not aware, but it can happen in the 
future.
    Mr. Gohmert. Okay. Thank you.
    Professor Crane, I am really torn here. It is such a moving 
story about the young man that admitted what he had done as a 
child. And you had expressed that you forgave him. And I 
wonder, if it turned out that--you know, as a judge, I saw a 
lot of child abuse, and people who abused children were often 
abused themselves. And I am wondering, if it turns out that 
most of these people forcing children to become soldiers were 
forced into being a soldier as a child themselves, should we 
forgive them and just let it go because they were forced in 
originally as a child?
    Mr. Crane. That is a good question, Judge, and I appreciate 
the point.
    The bottom line is that, at the international level, you 
have entire generations of children, 35,000 in Sierra Leone, 
who were moving around who were child soldiers. I made a 
political decision, as the chief prosecutor, that I did not 
have the capacity to prosecute a child for war crimes and 
crimes against humanity. Frankly, I don't think a child has the 
mens rea to commit a war crime, and I made that appropriate 
decision. The entire country issued a collective sigh of 
relief.
    So when I said ``forgave,'' it was a personal forgiveness; 
it wasn't a legal forgiveness.
    Mr. Gohmert. Because I wonder, because this is an issue 
that gets debated frequently. And some States, like my own, 
have laws that if a crime is so atrocious and the facts 
surrounding it give such an indication that there was clearly 
mens rea by someone under 17, then he can be certified up to be 
tried as an adult for such a heinous crime.
    And so, anyway, there is an ongoing debate over the issue, 
but I wondered where you came down on that. You are not 
asserting that we forgive anybody that was forced in 
originally, correct?
    Mr. Crane. Not at all. You know, I am an old Federal 
prosecutor.
    Mr. Gohmert. That is a mitigating factor on sentencing, 
rather than an outright defense then, as a prosecutor?
    Mr. Crane. Yes, sir. As a prosecutor, I would say that 
anybody who commits violations of domestic law under our 
domestic law has the appropriate resolution.
    At the international level, when the multiples are far 
beyond just one or two or a gang or what have you that might be 
before your court, Judge, that might be a different story. But 
when you are looking at literally an entire generation, you 
have to make some hard calls related to who you prosecute and 
who you don't.
    Now, frankly, my mandate from the Security Council was 
those who bear the greatest responsibility, and that is the 
guys that actually started it, aided, abetted it.
    Mr. Gohmert. Thank you.
    And I know that Human Rights Watch, as I understand it, is 
a member of the Coalition to Stop the Use of Child Soldiers. As 
I understand it, that is a group that does want to stop anyone 
under 18 from becoming a soldier. Is that correct?
    Mr. Malinowski. I can tell you that we are absolutely 
comfortable with the treaty that the United States is part of, 
which----
    Mr. Gohmert. But isn't that something that the coalition 
has a stated goal?
    Mr. Malinowski. I think there are many, many folks who 
would say that, yes. I think it is a very narrow distinction 
now. And you know where we are, as a country, that DOD can 
recruit at age 17; 17 year olds don't go to the front lines. 
And we think that is certainly something that we are 
comfortable with.
    Mr. Gohmert. Okay, you are comfortable with, but would you 
like to see, personally, eventually no 17 year olds recruited?
    Mr. Malinowski. Personally, I would be happier, because I 
am concerned about setting the clearest example for other 
countries where this is more of a problem. It is not so much 
the United States aspect of this that is the problem, but we 
are the leader, and everything we do is an example, for better 
or worse, for others.
    But, as I said, this is not the major issue in the debate 
right now. The major issue is how do we get the standard 
enforced in the countries where it is such an atrocious 
problem.
    Mr. Gohmert. And truly, it is a problem.
    I would expect you would support the bill that I think has 
been filed here in the House to end any foreign assistance to 
countries that allow this type of practice, correct?
    Mr. Malinowski. Well, that's right. And a version of that 
is actually already enacted in the Consolidated Appropriations 
Act that you all passed last December. That bill would make it 
essentially permanent. And, again, it gives the State 
Department a powerful tool to press governments that are at the 
root of the problem to change their practices. And that is 
vital.
    Mr. Gohmert. Okay. And just to wrap up, I'd note for the 
record that most all of our attendees at our service academies 
were recruited and signed up, or at least recruited and made 
the commitment to application, before they turned 18. I 
certainly applied for A&M and went into ROTC and turned 18 just 
before I started school. So maybe you could point to that and 
say, ``Oh, so that's your problem.'' But anyway, thank you.
    I yield back.
    Mr. Scott. Thank you.
    The gentleman from Michigan, Chairman of the Committee?
    Mr. Conyers. Thank you, Chairman Scott.
    Can we get into the record the countries that have the most 
problems with the use of child soldiers? Is that in anyone's 
testimony or in our prepared material?
    Mr. Malinowski. We could provide you with a list of the 18 
countries, Mr. Conyers, where we know this to be a significant 
problem.
    Mr. Conyers. Thank you very much, Mr. Malinowski.
    [The information referred to follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Conyers. Now, what do we do if a child soldier is under 
the age of 15?
    Mr. Malinowski. What do we do?
    Mr. Conyers. Yes, if the law says it has to be he is at 
least 15.
    Mr. Malinowski. No, it is under 15.
    Mr. Conyers. It is under 15?
    Mr. Malinowski. That's right.
    Mr. Conyers. Okay. Anything under 15?
    Mr. Malinowski. That's correct.
    Mr. Conyers. Is there a credible case for making it under 
18?
    Mr. Malinowski. I think we would be happier if it was under 
18. That is the emerging international standard. It is 
something that the United States has signed up to. Fifteen is a 
more conservative approach to this, one that is consistent with 
what everyone around the world has already agreed to 
criminalize.
    So, again, we are comfortable with the bill at 15. We would 
be happy if the Congress were able to bring that up higher. The 
most important thing, though, is to criminalize the worst, most 
egregious violations of the standard. And, obviously, the 
younger the child, the worse the violation.
    Mr. Conyers. Prosecutor Crane, have you anything to add to 
this?
    Mr. Crane. Other than to just underscore, Mr. Chairman, the 
fact that if the United States passes this bill, it rings a 
bell throughout the world saying, at a minimum, under 15, if 
you recruit children, if you come to the United States or we 
find you in the United States, you will either be prosecuted, 
deported or denied entry.
    And as an old prosecutor myself, if I have a tool by which 
to choose, then that is a useful thing for me. I may choose to 
do nothing, based on the circumstances, but if I have the 
opportunity, it would be a terrible thing not to be able to do 
anything related to a child soldier.
    You know, there is a huge diaspora of West Africans in this 
country who settled around Baltimore, Boston, Philadelphia. In 
fact, Charles Taylor's son was caught in Miami and currently is 
sitting in Miami, being prosecuted for an unrelated charge. But 
he was going to Minnesota, which has a huge Liberian diaspora, 
to recruit to get his father out of Nigeria, to take him back 
into Liberia to start the civil war all over again. Some of 
those were children.
    So I would just say as just a factual note, respectfully, 
if the practice is there, and the opportunity, they will take 
it.
    Mr. Malinowski. If I may add to that, because I think that 
is the question looming over the discussion: Is this just a 
symbolic gesture, a way for us to say we are against child 
soldiers? Or is it something practical that will create legal 
precedent that will bring perpetrators to justice? And I think 
the answer is the latter. I wouldn't be here if it was just 
symbolic.
    My understanding is that the Justice Department has, in 
fact, identified potential cases that they could bring, were 
this law to be adopted. They are not going to tell us who those 
individuals are, I think for very appropriate reasons. But that 
is my understanding.
    Is it going to be hundreds of people? Of course not. But 
one case, such as the case of the son, Chuckie Taylor, as he is 
known, does send a very powerful message and creates a 
precedent about this standard that we are trying desperately to 
advance around the world.
    Mr. Conyers. Ms. Grace Akallo, are there any other comments 
you would like to make that occurred to you during this 
discussion after you made your opening statement?
    Ms. Akallo. Yes. I have been listening about the age limit 
that children should be recruited in the army that is between 
15 and 18. If it was in my power, I think 18 would be the best 
standard, because even the 15 year olds still deserve the 
chance for a future. But being recruited into the army--I was 
recruited at the age of 15. I was in school. My future was 
basically destroyed. If I had not gotten a chance to survive 
and come back and continue with education, I wouldn't be 
sitting here.
    And the recruitment of children above 15 years old should 
not even been forceful; it should be voluntary, if the child is 
15 or 18, should be voluntary, not forced. But so many 
countries force these children. When we talk about recruitment 
of children, they are forced. They are forced by abduction or 
by threat of death or killing of their families, and the 
children join in the army.
    And if possible the age limit would be 18, according to me, 
it would be good. But if the world has come to agreement to 
that, I will be comfortable for now.
    Mr. Conyers. If I can ask this final question, Chairman 
Scott, what is the psychological repair of this? Have we been 
able to engage in any medical examination of how we bring 
people out?
    You, Ms. Akallo, are a unique representative of this 
phenomenon, because I can tell without an examination of my own 
question that, for many, this is a difficult and impossible 
road back to normalcy and sanity.
    And so I wanted to ask all of you how we should go about 
the psychological healing that is so awfully complex.
    Ms. Akallo. The psychological healing of these children--I 
would begin by myself--is very possible, sir. When a child is 
taken and put into another world different from where he has 
been, he believes in that world. But he is not completely 
destroyed. He still has the memory of the world that he was 
taken from. So when he comes back or he manages to escape and 
he is given counseling and given a chance of a future and a 
chance of responsibility to his community, the child is able to 
come back to his normal.
    But most of the time, when these children come back, their 
families are destroyed. Like in Uganda, they live in displaced 
camps that are really bad, bad situation. They are ridiculed. 
They are abused, because these people live in a compact 
community camp that is really bad. And the abuse may not be 
purposefully, but because they are redundant, there is no work 
to do, so they continue abusing these kids. And then these kids 
don't get completely get psychologically healed.
    But if they are given a chance to a new environment, a new 
future--and, to me, a new future is education--that if they get 
and they know the sense of responsibility to their community, 
they easily can get healed.
    Mr. Conyers. Mr. Malinowski, have you anything--what are 
you thinking about the healing process?
    And this should be relatively easy legislation to enact; 
the next step is the healing.
    Mr. Malinowski. Well, I am not sure what I can add that 
could possibly be as eloquent as what we just heard from 
someone who has lived this.
    I do know that in the relatively fortunate societies where 
the active recruitment of children has stopped or is on the 
decline, like northern Uganda, like Sierra Leone, because of 
the peace process, there is an opportunity for the brave people 
that our Government often funds and supports in the aid 
community to deploy and to provide the kinds of services, 
particularly education, that kids desperately need to have the 
opportunity to live a more normal life.
    And I know that our Government is engaged in that. And we 
always love it when Members of Congress ask the State 
Department what they are doing and encourage them to do more 
and help them to do more. And I would encourage you to do that.
    And, of course, there are societies where there is no 
opportunity to do that, like, for example, Burma, where this 
problem continues to rage, and there is no opportunity for good 
people to go in and hug these kids and to give them a chance to 
lead a more normal life. And there our focus has to be on 
stopping it.
    So it is a two-pronged effort. We need both.
    Mr. Crane. Just to brief up, Mr. Chairman, I haven't asked 
this question yet. I have thought about it. In fact, I have had 
nightmares about it, frankly, sir. But the point is that there 
is an entire generation in West Africa that has no hope. Have 
you ever seen a child who looks you in the eye and has no hope? 
They can't read, they can't write, they have no jobs, there is 
no basis to even educate them. They don't even know their real 
names, and they don't even know where they came from.
    The 10 percent, maybe 5 percent, that finally work their 
way back to their village, they have a cleansing ceremony, 
which I observed. Very moving. A child throws himself to the 
feet of his elders, seeking forgiveness. The elders ask the 
community, do they want this now 6-, 5-, 7-year older child, 
who left at 7 years old, who comes in at 14 or 15 years old. 
They all nod, and they put him into a cleansing hut, and they 
take off his clothes, and they ritually wash him, and they give 
him new clothes, and he walks out, and the community accepts 
him back into the community. That is, like, one in a thousand. 
It is the other 999 that bother me.
    Frankly, there is nothing we can do, because there is not 
enough political will. Even though there are many, many groups 
trying, it just can't be done when you have that amount of--a 
generation lost. That is why we need to at least put a floor 
down saying, it is enough, and continue to move forward. Maybe 
we won't have any further Ugandas, Sierra Leones, Colombias, 
Cambodias, you name it.
    Thank you, sir.
    Mr. Conyers. Thank you very much.
    [5:06 p.m.]
    Mr. Scott. Thank you. I just had a couple of technical 
questions to, I guess, Professor Crane.
    If someone is prosecuted in the United States for a crime 
that was committed somewhere else, are there due process and 
evidentiary challenges that we need to address?
    Mr. Crane. Well, certainly, when one commits a crime 
overseas, there has to be some type of extraterritoriality to 
the legislation. Obviously, there has to be a jurisdictional 
hook by which we can bring that person into the United States 
and prosecute them for violation of any kind of law. I mean, 
that is just a basic jurisdictional issue.
    And so the issue is, if the person is here and it can be 
shown that they unlawfully recruited a child under the age of 
15 into an armed force, for example in Sierra Leone, and they 
are living in the United States, certainly one could argue that 
we might have the ability to prosecute that individual.
    Mr. Scott. I'm not talking about the jurisdiction. I'm 
talking about just the nuts and bolts of a prosecution. Where 
do you get your evidence? How does he defend himself? Due 
process and evidentiary challenges.
    Mr. Crane. Oh, excuse me. Absolutely. Well, certainly 
evidence is always a challenge, evidence is always an issue, 
because a lot of the evidence is overseas. However, if you 
have, for example, an individual who is in the United States on 
a green card, for example, and was found to have been a 
combatant in Sierra Leone, it would be largely up to 
individuals. It is witness testimony. There is nothing in 
writing. It is individuals saying, ``I saw this person kill 
this''--or recruit so-and-so.
    Mr. Scott. Have there been such prosecutions? I mean, where 
do you get your witnesses? Does a defendant have an opportunity 
to defend himself?
    Mr. Crane. Certainly. Of course, at the international 
level, we did prosecute. We did present evidence. And, in fact, 
I even provided you a picture of my lead-off witness in the 
case against the leadership of the Revolutionary United Front. 
He has ``AFRC RUF'' carved into his chest.
    You bring in the victims, you bring in the individuals who 
were victims of being recruited. So it is victim testimony. Of 
course, certainly they can be cross-examined. I mean, 
obviously, the rules of procedure and evidence that were 
created by the statute of the court certainly allow a complete, 
common law due process.
    In fact, it was a very familiar feeling to me when I was 
wearing the robes of a chief prosecutor in a tribunal as you 
would in practicing before the judge here. I mean, it is common 
law. But the bottom line is it is just good lawyering and 
getting your victims.
    I was impressed. We had 395 witnesses lined up to testify 
in all sorts of crimes, one of which was crimes against 
children; 394 showed up. And, as was alluded to, they proudly 
come forward and want to tell their testimony. They want to 
give--they do this for the families that aren't there and for 
the people who have been murdered in front of their eyes.
    Mr. Scott. Mr. Malinowski, do you see any due process or 
evidentiary challenges that we need to address?
    Mr. Malinowski. Well, yeah, the due process standards are 
the same, defendants' rights are the same, and the evidentiary 
standards are the same.
    If the evidence is overseas, it is harder, which is why--
you know, if it happens in the United States, the Justice 
Department is likely to choose cases where the evidence is 
fairly clear, where witnesses are available, where they feel 
like they have a good chance of obtaining a conviction.
    And, you know, we mentioned the case of Chuckie Taylor, 
Charles Taylor's son. And that is a good example of a case 
where the Justice Department feels it can overcome those 
inherent challenges and set a precedent that will be very 
valuable. And I imagine that would be the same for any case 
that they take under the child soldier statute, as well.
    Mr. Scott. The statute of limitations in the bill is 10 
years. Is that too long or too short or just right?
    Mr. Crane. My feeling is it is--I think it is about right. 
I think it is about right. Ten years is sufficient. I think 
that kind of evidence will come out earlier than later. But, 
again, it remains to be seen. I'm speculating, frankly, Mr. 
Chairman. But 10 years seems to be right to me.
    Mr. Scott. And the penalty, 20 years to life if death 
occurs, how does that compare to other crimes? In context, is 
that an appropriate sentence?
    Mr. Crane. Yes, it is, Mr. Chairman. The standard at the 
international level is if you're charged with the unlawful 
recruitment of child soldiers under the age of 15, it can carry 
up to as much as what would be equivalent to a life sentence. 
There is no death penalty at the international level.
    So, on balance, this bill is right down the middle as far 
as statute of limitations, penalties, and even the standard of 
under the age of 15, in my opinion.
    Mr. Scott. Thank you.
    Mr. Gohmert?
    Mr. Gohmert. Just one clarification question, Mr. 
Malinowski. You mentioned if this were purely symbolic, that 
you wouldn't be here. And I'm curious, because, to me, since it 
appears it will not be used a great deal, so far not at all--as 
the occasion arisen, but there may be facts arising now--but is 
the symbolism to other countries of this Nation passing a law 
like this of any significance?
    Mr. Malinowski. Absolutely. And I would see that as a 
practical, rather than symbolic, benefit.
    Mr. Gohmert. I wasn't sure if you were saying----
    Mr. Malinowski. Yeah, I mean, ideally we would want to 
create a web of laws around the world, so that it is not just 
an issue of no safe haven in the United States, but no safe 
haven anywhere.
    The United States is a leader. If the Congress passes this 
law----
    Mr. Gohmert. We agree on that, because it looked like to me 
that the potential message to the rest of the world may be the 
most important aspect if this becomes law.
    Mr. Malinowski. It is a very important aspect, yes.
    Mr. Gohmert. Okay. I just wasn't sure if you felt that was 
important, from your comment. Thank you.
    Mr. Scott. Let me ask one final question.
    This says the prohibition is against someone doing the 
recruiting and whatnot. If we passed the bill, would it apply 
to anyone who has done this in the last 10 years or anyone who 
violates the provisions of the bill prospectively?
    That came up in some of our other bills. And it was felt 
that, since it is already illegal, that we would be intending a 
retroactive application. How does that fit in our little 
constitutional framework?
    Mr. Crane. Well, certainly, ex post facto laws and those 
types of things are problematic, and I take your point.
    The unlawful recruitment of children under the age of 15 
into an armed force, as our appellate court ruled, crystalized 
as customary international law as of 1996. So it is an 
international crime, certainly as of that date. In other words, 
all who have done it are on notice that it is unlawful to 
recruit.
    So, certainly, my argument would be, if we were doing this 
in a court of law, is that we are just enforcing what is 
already an international crime and using this as the mechanism 
by which we would do that.
    Mr. Scott. Do you have a different analysis, Mr. 
Malinowski?
    Mr. Malinowski. No, I would agree.
    Mr. Scott. I'd like to thank our witnesses for their 
testimony today, particularly Ms. Akallo, for your very moving 
testimony, and responses to questions.
    Members may have additional written questions for witnesses 
which will be forwarded to you, and we ask that if you're sent 
questions, that you answer them as promptly as you can so they 
may be made part of the record.
    And, without objection, the hearing record will remain open 
for 1 week for submission of additional materials.
    Without objection, this Subcommittee stands adjourned.
    [Whereupon, at 5:14 p.m., the Subcommittee was adjourned.]
                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 <all>

</pre></body></html>
